           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   FOLLOW-UP: SURVIVOR BENEFITS
PAID IN INSTANCES WHEN THE SOCIAL
SECURITY ADMINISTRATION REMOVED
 THE DEATH ENTRY FROM A PRIMARY
      WAGE EARNER’S RECORD

    September 2011   A-06-10-20135




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                          SOCIAL SECURITY
MEMORANDUM

Date:      September 1, 2011                                             Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Follow-up: Survivor Benefits Paid in Instances When the Social Security Administration
           Removed the Death Entry from a Primary Wage Earner’s Record (A-06-10-20135)


           OBJECTIVE
           Our objective was to determine the status of corrective actions the Social Security
           Administration (SSA) had taken to address recommendations in our September 2006
           report, Survivor Benefits Paid in Instances When the Social Security Administration
           Removed the Death Entry from a Primary Wage Earner’s Record (A-06-06-26020).

           BACKGROUND
           SSA maintains death information for all individuals with Social Security numbers in a
           repository known as the Death Master File. SSA accepts and posts a report of death on
           an individual’s record. The person who reports the death must provide SSA with the
           name, date of birth, and Social Security number of the deceased individual before SSA
           can add the death to the Death Master File. 1 Proof of death is required when a family
           member files a survivor benefit claim on a deceased person’s record. 2 Once SSA posts
           a report of death to its records, the wage earner’s surviving spouse and children can
           potentially become eligible for survivor benefits. If SSA discovers it posted a death
           report in error, staff should delete the erroneous death entry from the Death Master File.
           Removal of an erroneous death entry can indicate that SSA paid survivor benefits in
           error.

           Our September 2006 report identified 307 wage earners whose family members had
           received survivor benefits even though SSA had “resurrected” the wage earners’
           records. In these cases, SSA had removed the wage earners’ death entries from the
           Death Master File, and SSA’s Numerical Identification (Numident) file indicated the
           wage earners were alive. SSA employees who deleted these death entries did not
           follow SSA policy and document pertinent facts to support or explain these transactions.

           1
               SSA POMS, GN 02602.050A.5 (05/13/11).
           2
               SSA, POMS, GN 00304.001A (03/25/08).
Page 2 - The Commissioner


The resurrection transactions indicated these wage earners were alive and therefore
survivor benefits paid on these records were improper. SSA agreed to perform death
verifications for each of the 307 records and reemphasize to field office employees the
importance of complying with established transaction documentation policies.

SSA records indicated that from May 2007 through April 2010, SSA removed
36,657 wage earners’ death entries from the Death Master File. As of April 2010,
1,421 3 of the 36,657 wage earners had survivor beneficiaries on their records. Our
follow-up review focused on how SSA handled the 307 cases referred during the prior
review as well as the 1,421 cases identified since May 2007. See Appendix A for
additional information about our scope and methodology.

RESULTS OF REVIEW
SSA has made progress in completing corrective actions to address the
recommendations in our September 2006 report. SSA determined that 286 of the
307 wage earners identified during the prior review were actually deceased and
reestablished dates of death on 280 of the wage earners’ Numident records.4 SSA
confirmed that 14 wage earners were alive and took action to terminate survivor benefit
payments. SSA erroneously issued approximately $579,000 in survivor benefits to
family members of these wage earners. SSA could provide no documentation to
indicate completion of death verifications for the remaining seven individuals.

As part of our follow-up review, we identified an additional 642 wage earners whose
family members received survivor benefits even though SSA had deleted the wage
earners’ death entries from the Death Master File, 5 and SSA’s Numident file indicated
the wage earners were alive. At the time of our review, SSA paid approximately
$644,000 in monthly survivor benefits to family members of the 642 wage earners. Our
review of sampled records indicated that, similar to our 2006 findings, SSA employees
who deleted these death entries did not document pertinent facts to support or explain
these transactions. The resurrection transactions indicated the wage earners were
alive, and survivor benefits were improper. If the wage earners were actually deceased,
SSA erroneously deleted their information from the Death Master File.

SSA TOOK ACTION TO CORRECT MOST RECORDS FROM THE LAST REVIEW

Our September 2006 report recommended that SSA perform death verifications for
each of the 307 records with survivor benefits identified in the report and take
appropriate action (for example, terminate benefits and establish overpayments,
3
  At the time of this audit, SSA’s records for 642 of the 1,421 wage earners continued to indicate the
individuals were alive. In the other 779 cases, SSA records indicated the wage earners were deceased
because, after the resurrection transaction, SSA processed additional death entries to record dates of
death on the wage earners’ records.
4
    For undetermined reasons, SSA had not yet reestablished dates of death on six records.
5
    SSA deleted these death entries from May 2007 through April 2010.
Page 3 - The Commissioner


reinstate death entries, and/or refer potentially fraudulent cases to the Office of the
Inspector General). Since that time, SSA had confirmed deaths and reestablished the
dates of death on the Numident for 280 of the 307 individuals. However, SSA needed
to take additional action.

•     SSA determined the primary wage earners were alive and terminated survivor
      benefits in 14 cases.
       In two cases, SSA improperly paid $40,068 in survivor benefits to widows and
        children of deceased wage earners who did not have sufficient work history to
        qualify their family members for benefits. SSA improperly awarded survivor
        benefits to these family members under the earnings records of the deceased
        wage earner’s brother in one case, and father in the other case. Neither the
        brother nor the father was actually deceased. After SSA approved the claims,
        staff removed the erroneous death entries from the brother and father’s records.
        However, the payment errors continued until these cases were re-examined as
        part of our prior audit. 6
       In one case, SSA determined it improperly paid $3,630 in survivor benefits to the
        child of a deceased wage earner. SSA improperly awarded the survivor benefit
        claim under the earnings record of an apparently unrelated, living wage earner.
        In this case, the deceased wage earner had sufficient work history to qualify his
        child for survivor benefits. However, SSA erroneously based benefit amounts on
        the higher earnings of the unrelated wage earner. After SSA approved the claim,
        staff removed the erroneous death entry from the unrelated wage earner’s
        record. However, the payment error continued until the case was re-examined
        as part of our prior audit. SSA has partially recovered the overpayment.
       In five cases, SSA identified approximately $173,000 in overpayments but had
        not initiated collection.
       In three cases, SSA established, but subsequently waived collection of,
        approximately $243,000 in survivor benefits erroneously paid to the wage
        earners’ family members.
       In two cases, SSA paid $113,309 in erroneous survivor benefits. SSA recovered
        $7,056, established a $26,092 liability against a representative payee, and
        waived collection of the $80,161 balance.
       In one case, SSA established a $5,160 overpayment and initiated collection.

•     SSA verified the deaths of six individuals but did not reestablish the dates of death
      on the numberholders’ records.

•     SSA had no evidence of death verifications for the remaining seven individuals.




6
    We forwarded both cases to applicable Regional Centers for Security and Integrity for further review.
Page 4 - The Commissioner


In June 2011, we informed SSA of the 13 cases that need death verification or
reestablishment of the date of death.

SURVIVOR BENEFITS PAID ON RECORDS WITH DELETED DEATH ENTRIES

SSA continued to pay survivor benefits after SSA employees removed the wage
earners’ death entries from its records. As part of our follow-up review, we identified an
additional 642 wage earners whose family members received survivor benefits even
though SSA deleted the wage earners’ death entries from the Death Master File 7 and
SSA’s Numident file indicated the wage earners were alive. At the time of our review,
SSA was paying family members of the 642 wage earners approximately $644,000 in
monthly survivor benefits. In April 2011, we provided SSA’s Office of Operations with
pertinent information on these 642 records.

If the wage earners are actually deceased, SSA correctly paid survivor benefits but
erroneously deleted the deceased individuals’ information from the Death Master File.
Agency officials recently emphasized SSA’s vital role in ensuring timely receipt and
prompt updating of death information as key factors in the financial industry’s ability to
prevent fraud and identity theft involving the SSNs of deceased individuals. Officials
further stated that public and private organizations also rely on Death Master File
information to combat fraud and identity theft. To be effective, SSA must ensure Death
Master File users have accurate and up-to-date information.

CONTINUED NONCOMPLIANCE WITH POLICIES AND PROCEDURES

SSA employees who deleted death entries from wage earners’ records were not
complying with established documentation policies and procedures. SSA provides
detailed instructions for the removal of death entries from wage earners’ records.8 SSA
does not require retention of hard copy documents to support resurrection transactions.
Instead, SSA requires that personnel who process these transactions input narrative
into the Agency’s systems explaining why the transactions were necessary; document
performance of required face-to-face interviews; and document the names of the
employees who initiated and approved the transaction.

We randomly selected 50 of 642 cases where survivor benefits continued although SSA
records indicated the wage earner was alive at the time of the audit and 50 of 779 cases
where SSA paid survivor benefits to family members of wage earners for whom staff
deleted then subsequently reestablished death entries. Our review of available SSA
documentation indicated that employees who deleted death entries rarely complied with
SSA documentation policies.

•     Death entry deletion transaction documentation was not available for any of the
      50 cases reviewed where SSA’s records indicated the wage earner was alive.

7
    SSA deleted these death entries from May 2007 through April 2010.
8
    SSA, POMS, GN 02602.055 (06/27/11).
Page 5 - The Commissioner



•   Documentation of the death entry deletions was not available in most of the
    50 cases reviewed where SSA deleted, and then subsequently reestablished, death
    entries.
     SSA employees documented an explanation or justification for only six cases.
     SSA employees documented performance of required face-to-face interviews for
      only two transactions. Employees must document these interviews for all
      resurrections unless the death entry resulted from an administrative error. Of the
      remaining 48 transactions, we found evidence to indicate only 2 were
      administrative errors.
     SSA employees who removed the death entries documented the names of the
      transaction initiator and approver for only 5 of the 50 transactions. SSA requires
      that two employees participate in the resurrection process and record the names
      of the transaction initiator and approver on systems evidence screens.

Because SSA employees rarely explained or justified removal of death entries from
these wage earners’ records, it is unclear whether most of these wage earners were
actually alive or deceased. Noncompliance with death entry deletion policies prevented
independent review of documentation supporting hundreds of approved survivor claims.

CONCLUSION AND RECOMMENDATIONS
SSA had taken action to correct most of the records identified in our September 2006
review. SSA terminated survivor benefits paid on 14 records after erroneously paying
approximately $579,000 in survivor benefits to the wage earners’ family members. We
identified several hundred additional cases where SSA removed death entries from
wage earners’ records but continued to pay monthly survivor benefits to the wage
earners’ family members. SSA employees who removed the death entries did not
explain or justify the transactions as required by SSA policy. Noncompliance with SSA
policy prevented independent review of documentation supporting approximately
$644,000 in monthly survivor benefit payments.

We recommend that SSA:

1. Establish and/or initiate collection action on five cases from our prior audit where
   SSA confirmed the numberholders were alive or document why collection action is
   not warranted.

2. Reestablish dates of death on the Numident records in the six cases where SSA
   determined the wage earners were deceased.
Page 6 - The Commissioner


3. Perform death verifications for each of the 642 records with survivor benefit
   payments identified in this review and the 7 pending from our prior review and take
   appropriate action (for example, terminate benefits and establish overpayments,
   refer potentially fraudulent cases to OIG, and/or reinstate death entries).

4. Reemphasize to field office employees SSA’s policies for documenting death entry
   removal transactions.

AGENCY COMMENTS
SSA agreed with our recommendations. SSA’s comments are included in Appendix B.




                                        Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Scope and Methodology
APPENDIX B – Agency Comments
APPENDIX C – OIG Contacts and Staff Acknowledgments
                                                                        Appendix A

Scope and Methodology
To accomplish our objective, we:

•   Reviewed the Social Security Administration’s (SSA) policies and procedures related
    to erroneous death terminations.

•   Analyzed SSA records for the 307 cases referred to SSA from the prior audit to
    determine whether SSA had performed death verifications and corrected the
    records.

•   Analyzed 36,657 instances where SSA removed death entries from the Death
    Master File from May 2007 through April 2010. We identified 1,421 records that
    included survivor benefits.

•   Analyzed Numerical Identification (Numident) records for each of the 1,421 wage
    earners. As of October 2010, 779 records contained a date of death, and 642 did
    not contain a date of death.

•   Analyzed SSA’s records for the 779 wage earners whose Numident record
    contained a date of death and identified the timing of the resurrection transaction
    relative to the date SSA posted the death entry on the Numident.

•   Randomly selected 50 of the 642 resurrection transactions for individuals without a
    date of death and 50 of the 779 resurrection transactions for individuals with a date
    of death on their respective Numident. Reviewed Shared Processes evidence
    screens for compliance with documentation requirements for all sampled records.

•   Reviewed Master Beneficiary Records, identified the status of any related survivor
    claims, and quantified the survivor payments for a sample of the 642 records.

We performed our audit in Dallas, Texas, between October 2010 and March 2011. We
did not test the general or application controls of SSA’s systems that generated
electronic data used for this audit. Instead, we traced selected transactions to source
documents and performed other validation tests. As a result, we found the data to be
sufficiently reliable to meet our audit objective. The entity audited was the Office of the
Deputy Commissioner for Operations. We conducted our audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.
                  Appendix B

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      July 27, 2011                                                           Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, "Follow-up: Survivors’ Benefits Paid in Instances
           When the Social Security Administration Removed the Death Entry from a Primary Wage
           Earner’s Record" (A-06-10-20135)--INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Frances Cord at (410) 966-5787.

           Attachment




                                                          B-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "FOLLOW-UP: SURVIVORS’ BENEFITS PAID IN INSTANCES WHEN
THE SOCIAL SECURITY ADMINISTRATION REMOVED THE DEATH ENTRY
FROM A PRIMARY WAGE EARNER’S RECORD" A-06-10-20135

Recommendation 1

Establish and/or initiate collection action on five cases from our prior audit where SSA
confirmed the numberholders were alive or document why collection action is not warranted.

Response

We agree.

Recommendation 2

Reestablish dates of death on the Numident records in the six cases where SSA determined the
wage earners were deceased.

Response

We agree.

Recommendation 3

Perform death verifications for each of the 642 records with survivor benefit payments identified
in this review and the 7 pending from our prior review and take appropriate action (for example,
terminate benefits and establish overpayments, refer potentially fraudulent cases to OIG, and/or
reinstate death entries).

Response

We agree.

Recommendation 4

Reemphasize to field office employees SSA’s policies for documenting death entry removal
transactions.

Response:

We agree. We will issue an Administrative Message (AM) to field office employees. The AM
will emphasize the importance of following current policies on documenting death-entry removal
transactions.




                                               B-2
                                                                       Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ronald Gunia, Director, Dallas Audit Division

   Neha Smith, Audit Manager

Acknowledgments

In addition to those named above:

   Clara Soto, Senior Auditor

   Chuck Zaepfel, Information Technology Specialist

For additional copies of this report, please visit our Website at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-06-10-20135.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
